NO:

=35455
IN THE
SUPREME COURT OF THE UNITED STATES

Fareed-Sepehry-Fard
V.

PETITIONER

FILED
JUN 0 1 2020
ZWENJOEFJ(ERS-FiRsK

Aurora Bank FSB, GPM Heloc, Bank of America, U.S. Bank National
Association as trustee for GreenPoint Mortgage
Funding, Frank H. Kim, Severson & Werson
RESPONDENTS (s)
ON PETITION FOR WRIT OF CERTIORARI TO

Supreme Court of California, Case No. S260411
After an Unpublished Decision by the Court of Appeal

PETITION FOR WRIT OF CERTIORARI

Fareed-Sepehry-Fard, Sui Juris
C/o 12309 Saratoga Creek Dr.
Saratoga, the State of California, Santa Clara County
(Zip code Exempt DMM 602 sec 1.3(e))
Phone Number (408) 690-4612
Email: Ahuraenergysolarcells@msn.com

Notice to Agent is Notice to Principal and Notice to Principal is Notice to
Agent.

QUESTION PRESENTED
A recalled judge in 2018, Mr. Aaron Persky of Superior Court
of California, County of Santa Clara, granted relief in 2012 to strangers to an
alleged financial transactions, while blocking any and all Petitioner's
attempts of discovery.
930Ale attorneys at Severson & Werson APC admitted, later on, that they
never 'ever had or have any power of attorney to represent neither U.S.
BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH CERTIFICATES,
SERIES 2007-AR2 ("the ghost") which never existed and does not exist nor
U.S. BANK NATIONAL ASSOCIATION nor from any damaged party,
party of interest and holder in due course of the alleged debt, alleged note
[which is forged] and alleged mortgage.
The facts are that, all cases, including traffic, civil, criminal, civil
harassment et. al., filed in courts are assigned Committee on Uniform
Securities Identification Procedures ("CUSIP") numbers which are traded on
„
;

street and monetized through variety of ruses, to wit: through Credit
;
SDefault Swaps ("CDSs"), Collateralized Debt Obligation ("CDO"), Yield

4

.
t'l .11-f?

Spread Premiums, all other insurance payouts, leveraging on deprivation of
people's rights under the color of law (packaged as CUSIP numbers), in
violation of 18 US Code Sections 241 and 242 as well as Title 42 US Code
sections 1983 and 1985, among others.
In majority, if not all these cases, the sources of the monies used for
these CUSIP numbers' trades, are from sex and human trafficking, child
trafficking, drug cartels and unlawful conduct.
The court administrators erroneously labeled as judges, such as but not
limited to the recalled judge, Mr. Persky, systematically denied and deny
any and all discoveries as to proof of the value allegedly paid for these
fabricated and false transactions by the identified entities since: 1) they
know, those sources identified, are not the sources who paid anything for the
alleged financial transactions identified in the manufactured paper trail filed
in courts and in county recorder; 2) they are bribed to disallow discovery.
From time to time, some court administrators, based on ignorance, or
simply because, they can not be bought, or both, allow for discovery, and all
of sudden, the homeowner would be offered a confidential settlement offer
by the ghost's culprits, yet the criminal enterprise continues its operations as
usual, on other victims. The review by this court of records is a matter of
National Security.

Moreover, the court of Appeal in Sepehry-Fard expressly set aside
perfection of Petitioner's Arbitration Award, as if it did not exist, creating an
irreconcilable conflict in the published SCOTUS decision in Henry Schein,
Inc., et al. v. Archer & White Sales, Inc. certiorari to the united states court
of appeals for the fifth circuit No. 17-1272. Argued October 29, 2018—
Decided January 8, 2019. The issue presented is:
Should this court end the conflict in lower courts by applying Schein
rules nationwide that Arbitration Award is effective upon its perfection
under notary witness sworn affidavit, non-judicially where the issue of the
Arbitration Award as an operation of law is the pre-cursor to the secondary
questions thus disapproving lower courts' interpretation of non-judicial
Arbitration Award specially when those interpretation was done by a very
corrupt recalled judge which has significantly damaged Petitioner
economically, physically and emotionally and continues to damage
Petitioner economically, physically and emotionally?

iv

LIST OF PARTIES
All parties appear in the caption page of the case on the cover page.

V

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

What the Petition to Recall Remittitur Asked the
California Supreme Court to Do?

5

Trial Court Proceedings

10

The Court of Appeal Affirms

11

Post-opinion proceedings

14
15

ARGUMENT

This Court should grant review to end confusion in the
lower California courts over the unanimous decision in
Henry Schein, Inc., et al. v. Archer & White Sales, Inc.
that arbitration award is not a cause of action but a fact....15
This Court should grant review in the interest of justice
since there is ample proof positive of no loan made to
Petitioner from any of the Respondents which is the
same as the arbitration award and Petitioner still wins

28

REASONS FOR GRANTING THE WRIT

31

CONCLUSION

34

vi

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D

TABLE OF AUTHORITIES
PAGE NUMBER

CASES
California Cases
Keshtgar v. US. Bank, NA., 2104 Cal.App.
LEXIS 498 (Cal. Ct. App. 2nd Dist.,
Div. Six June 9, 2014)

Passim

Sepehry-Fard v. Aurora Bank CA6 (2016)

3,5,33

Yvanova v. New Century Mortgage Corp.,
226 Cal:App.4th 495 (2014)

3,4

Gomes, supra, 192 Cal.App.4th

3

Serrano v. Stefan Merli Plastering Co., Inc. (2008)
162 Cal.App.4th 1014, 1029

13

Federal Cases
21

U.S. v. Tweet, 550 F. 2d.297
Culhane v. Aurora Loan Services, 708 F.3d
282, 290 (1st Cir. 2013)

Passim

Ohlendorf v. American Home Servicing, 279
F.R.D. 575 (E.D. Cal. 2010)

Passim

Media Technologies Licensing, LLC v. Upper
Deck Co., 334 F.3d 1366, 1370 (Fed. Cir. 2003) (Cal)
Sosa v. Fite, 498 F. 2d 114, 116, 117 (5th Cir. 1974)

viii

23
.Passim

Supreme Court Cases
Basso v. Utah Power and & Light Co. 495 F 2d 906, 910
Lujan v. Defenders of Wildlife, 504 U.S. 555,
570 n.5 (1992)

13,14
22

Rent-A-Center, West, Inc. v. Jackson, 561 U. S. 63, 67

16,18

AT&T Technologies, Inc. v. Communications Workers,
475 U. S. 643, 649-650

16,18

Keene Corp. v. United States, 508 U.S. 200, 207 (1993)

22

Compton v. State of Alabama, 214 U.S. 175 (1909)

16

STATUES AND RULES
California Statutes
California Commercial Code 3308

7

California Rules of Court
Rule 8.25 (b) (3)

15
Statues and Other Authorities

Title 9, US Code

24,25

Cal. Const., art. VI, § 10

13

Civil Code of the State of California section 3516

16,17

Fed. R. Civ. P. Rule 12 (h) (3)

29

Black's Law Dictionary

24
ix

Article 1 section 10 of the Constitution
Article III
Internal Revenue Code §§§860D, 860F(a),
860G(d)
Rest.2d Conf. of Laws, § 32
Code of Civil Procedure Section 170.3(c)(5)
Demarest v. Hopper, 22 N. J. Law, 019;
Martin v. Railroad Co., 83 Me. 100, 21 Atl. 740;
Yeeder v. Mudgett, 95 N. Y. 295.

7
22

9
12
14,15

24

Bureau of Land Management, Public Information Office

Passim

Land Patent

Passim

Treaty of Guadalupe Hidalgo
between the United States and the Republic of Mexico

Passim

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below issued by a recalled Superior Court
of California, Santa Clara County Court judge.

OPINIONS BELOW

The Decision of the highest state court Denying to Recall
Remittitur based on a void judgment issued by a recalled
judge appears at Exhibit A [1 PT 6] 1 and is unpublished.
The Decision of the 6th District Court of Appeal, the 2'1
highest state court, rejecting Motion to Recall Remittitur
based on a void judgment issued by a recalled judge
appears at Exhibit B [1 PT 12-23] and is unpublished.
The Opinion of the Santa Clara County recalled Court
judge appears at Exhibit C [1 PT 49-54] and is
unpublished.
1

PT stands for Petitioner's Transcripts concurrently filed, [1 PT

49-54] means volume 1 of Petitioner's Transcripts pages 49 to
54 inclusive, etc. etc

JURISDICTION

The date on which the highest state court decided my case
was on March 11, 2020. A copy of that decision appears
at Exhibit A [1 PT 6].
The jurisdiction of this court is invoked under 28 U.S.0
§1257(a) and 5th amendment right to due process.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Petitioner was unable to obtain an impartial arbitrator and
an impartial forum, without bias, pursuant to the 4th, 5th, 6th, 7th,
and 14th Amendment guaranteed rights of the federal
Constitution of 1787, as purviewed by the states for
Complainant, Petitioner and Appellant Fareed -Sepehry-Fard.
Petitioner has been wronged by a recalled judge, and as an
American, is due remedy.
Accordingly, the lower court order is void on its face, in
fact and in law due to inter alia, recalled judge's void order, who
had neither In Personam nor subject matter jurisdiction, Id.

2

STATEMENT OF THE CASE

Petitioner, Plaintiff and Appellant Fareed-Sepehry-Fard,
Sui Juris, (or "Petitioner") appealed a decision by the trial court
sustaining a demurrer to the Second Amended Complaint (or
"SAC") without leave to amend, order issued by a recalled judge,
Exhibit A [1 PT 49-54].
The court of appeal upheld the demurrer. Sepehry-Fard v.
Aurora Bank FSB CA6, opinion at Exhibit B [1 PT 36 - 48].
Yet, the court of appeal also agreed that "In dicta, the court in
Gomes suggested that a preemptive attack on a nonjudicial
foreclosure might adequately state a cause of action if the
complaint provides a "specific factual basis" to call a defendant's
authority to foreclose into question. (Gomes, supra, 192
Cal.App.4th at p. 1156, italics omitted.)", Id, at page 45.
Later on, California Supreme Court in Yvanova v. New
Century Mortg. Corp., 365 P.3d 865, 850 (Cal. 2016) said that it
is against the law for complete strangers to Petitioner, as in here;
to do anything against the Petitioner without any evidentiary
-3-

hearing, and in fact blocking discovery, as in here, as to the
standing of the Respondents and their proof of payment for the
alleged debt, doubly voiding the void order issued by the recalled
judge, "The borrower owes money not to the world at large but
to a particular person or institution, and only the person or
institution entitled to payment may enforce the debt by
foreclosing on the security." Emphasis added, Yvanova, Id
Since Relief was granted to complete strangers to
Petitioner based on facts on records without any authority and
any relationship with Petitioner, whatsoever, Petitioner has been
harmed economically, emotionally and physically, by and
through a void order issued by a recalled judge, who conducted
several ex parte communications with Respondents' attorneys
who admitted to Petitioner later on that the attorneys do not and
never did represent neither U.S. BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2007-AR2 nor U.S. BANK
NATIONAL ASSOCIATION.

4

This summary of facts is based on sworn statements of
Petitioner made in the Petition to recall remittitur.
A.

What the Petition to Recall Remittitur Asked the
California Supreme Court to Do?

Petitioner asked The California Supreme Court to recall
the void remittitur issued by California Sixth District Court of
Appeals based on an order issued by the recalled judge Mr.
Persky, Exhibit D at [1 PT 78-90].
Petitioner presented to the lower courts in addition to fact
that the remittitur issued by a recalled judge is void and of no
force and effect, it must additionally be reversed because it was
based on the predicate ownership of the alleged debt by an entity
that never existed, does not exist, never had any bank account,
never paid for anything since it was never funded, and was used
a rented name by Nationstar Mortgage LLC. (Aurora Bank)
using very corrupt and bribed judges to use People's homes as
conduits to conduct unlawful money laundering for pedophiles,
drug cartels, sex traffickers and others when there is absolutely
no relationship between the false claimants, that never existed,
do not exist, without any power of attorney to the alleged debt

collector attorneys to conduct any acts against Petitioner and
injured man, whatsoever.
Petitioner stated under oath that the false claimants have
been committing acts of piracy and grand theft of Petitioner's
home when there were never ever any relationships of any kind
among Petitioner and any and all the false claimants, whoever
they may be, since the named claimant, to wit: U.S. BANK
NATIONAL ASSOCIATION, AS TRUSTEE FOR
GREENPOINT MORTGAGE TRUST MORTGAGE PASSTHROUGH CERTIFICATES, SERIES 2007-AR2 ("the ghost")
never existed and does not exist and the attorneys have admitted
that they have no power of attorney neither from the ghost nor
from U.S. BANK NATIONAL ASSOCIATION nor from any
damaged party, party of interest and holder in due course of the
alleged debt, alleged note [which is forged] and alleged
mortgage.
Moreover, attorneys admitted on records that they have no
power of attorney from any damaged party, Exhibit D (1 PT, at
pages 78-87.)

6

Petitioner declared and obtained an arbitration award,
through a notary witness, that the Respondents' security
instrument was null and void and made a record of that in county
recorder, see Instrument Number 21300093 filed in Santa Clara
County Court on September 1, 2011.
Petitioner alleged harm done to Petitioner and that there
were never ever any loan made to Petitioner from any of the
Respondents and their co parties, Exhibit D (1 PT, at page 69 and
throughout PT.) Petitioner challenged the trial court on its In
Peronam jurisdiction and subject matter jurisdiction over
Respondents, Petitioner through proper judicial notice, made a
record that per Article 1 section 10 of the Constitution: "No
State shall enter into any Treaty, Alliance, or Confederation;
or Law impairing the Obligation of Contracts...." and that
Petitioner already has his judgment and required court's
assistance in enforcing that judgment and that Petitioner never
received any "loan" from any of the Respondents, Id., that
Petitioner wants his monies back, that the judge agreed to a trial
by jury pursuant to Petitioner's 7th amendment rights but the
judge failed to deliver, that Petitioner pursuant to UCC 3-308
-7-

(which is the same as California Commercial Code 3308)
disputed all the signatures on the alleged note and false
assignments because Petitioner complained that his signature on
one or more promissory notes were forged and subsequently
Petitioner complained to Police about his identity theft at [1 PT
24], to Federal Trade Commission about his identity theft and
securities fraud committed and perfected by the Respondents and
their culprits at [1 PT 27-29], and to all three credit reporting
agencies where Petitioner's identity had been stolen by using
incorrect names and 16 different addresses for Petitioner when
none of them were correct at [1 PT 30] and using a social
security number that does not belong to Petitioner since it ended
with 6 where Petitioner's Social Security Number ends with 7
and not 6 at [1 PT 31], that numerous false assignments were
fraudulent and void which repeatedly revealed several broken
chain of title among various entities and the original so called
"lender" and that there were never ever any "for value
consideration" or payment for any of the false assignments that
false paper trail, Respondents created in the county recorder to
create a false air of privity between Petitioner and the
8

Respondents when there has never been any, in addition to the
fact that those false assignments, years after the alleged trust had
been closed, clearly violated state and Federal trust laws,
REMICIInternal Revenue Code §§§860D, 860F(a), 860G(d).
A REMIC or special purpose vehicle (SPV) is an entity
that is created for the specific purpose of being a tax-free passthrough for interest income generated by pooled mortgages. This
allowed investors to purchase shares or certificates in a mortgage
pool that was only taxed once at the investor level. The REMIC
rules allowed the mortgage pools to collect interest income from
the pool and disburse that income to the certificate holders taxfree at the pool level. Prior to the REMIC, interest income from
pooled mortgage investments were taxed twice, once at the pool
level and again at the investor level. REMIC rules are very
specific, and to qualify as a REMIC under federal and state tax
codes, the SPV had to meet very stringent requirements. With
respect to RMBS the controlling trust document is known as the
Pooling and Servicing Agreement (PSA). One function of the
PSA is to establish the rules governing the trust such that the
trust's activities and management conform to IRC 860. If the
9

trust did not conform, it looses its REMIC status and its tax-free
pass-through status, therefore the alleged contract, in addition, is
void in view of numerous false assignments, post closure of the
alleged trust in 2007.
B.

Trial Court Proceedings
Based on Petitioner's judgment and arbitration award, non

- judicially at inter alia Instrument Number 21300093 filed in
Santa Clara County Court on September 1, 2011 in addition to
the several break in the chain of title, Petitioner sued
Respondents. Petitioner filed the original complaint on
September 2011, (1 PT, at page 37.) The Defendants demurred
to this complaint, but petitioner was granted leave to amend.
Petitioner filed first amended complaint (or "FAC"), the
Defendants again demurred to the FAC, but petitioner was
granted leave to amend FAC. In FAC, Petitioner alleged that
Respondents have reported derogatory and adverse credit
reporting to credit agencies on an unsubstantiated debt when
Respondents have been complete stranger to Petitioner and once
again complained that there has never ever been any default
since Petitioner does not and never did have any loan with the
- 10 -

.
RespondentS, that RespOhdents have extorted monies `and stolen
monies from `Petitioner, that Petitioner alreadyhas his judgment'
and requested the court to enforce Petitioher's judgment, that
Petitioner again challenged the court's subject matter'and In
Personam jurisdiction over the Defendints since they never
appeared in any court of records, (1 PT,'-at page 37). In Second
Amended Complaint, Petitioner again challenged the court's In '
Personam and subject matter jurisdiction over Respondents and
proVided offer of proof, the recalled jUdge blocked discovery,
conducted ex parte communications with Defendants, completely
railroaded Petitioner at every turn and repeatedly denied
Petitioner's due process rights.
C.

'• The Court of Appeal Affirms.

Petitidrier appealed. On December 31; 2015, Petitioner "
moved the court to strike Respondents' brief in its entirety based'
on inter alia, coure§ lack of In Personam and Subject matter
jurisdiction over Respondents.' The presiding judge denied that
motion without any opinion on January 13, 2016, [1 PT 10].
Petitioner then filed for a motion for Findings and FactS and
Conclusion of law on January 15, 2016. Again, the presiding
-11-

united states court of appeals for the fifth circuit No. 17-1272.
Argued October 29, 2018—Decided January 8, 2019, where
Justice Kavanaugh in a unanimous Supreme Court already stated
the obvious, " The "wholly groundless" exception to
arbitrability is inconsistent with the Federal Arbitration Act and
this Court's precedent. Under the Act, arbitration is a matter of
contract, and courts must enforce arbitration contracts according
to their terms. Rent-A-Center, West, Inc. v. Jackson, 561 U. S.
63, 67. The parties to such a contract may agree to have an
arbitrator decide not only the merits of a particular dispute, but
also " 'gateway' questions of `arbitrability.' " Id., at 68-69.
Therefore,

a court may not override the contract, even if

the court thinks that the arbitrability claim is wholly groundless.
That conclusion follows also from this Court's precedent. See
AT&T Technologies, Inc. v. Communications Workers, 475 U. S.
643, 649-650.", emphasis added., also see Compton v. State of
Alabama, 214 U.S. 175 (1909) and California Maxims of
Jurisprudence, the Civil Code of the State of California section
3516 which states" Acquiescence in error takes away the right of
objecting to it." which is substantive law and not subject to be
-16-

changed, amended, modified or altered by any procedural rules,
as a matter of law, State of California C.C.P. 3516, Id.
Appellant already has his arbitration award, Instrument
Number 21300093 filed in Santa Clara County Court on
September 1, 2011.
By definition, any lawsuit filed by the Petitioner to
ENFORCE the arbitration award

to get the note,

satisfaction of the alleged debt and recoupment of his stolen
monies by the Respondents --- is NOT an action to
EFFECTUATE the arbitration award. The intent of the statute is
crystal clear --- that the Petitioner doesn't need to be a lawyer or
financier to cancel the deal. It is canceled by the arbitration
award. No particular form is required.

Moreover, the question of "disputed" and "undisputed"
arbitration award was addressed squarely by the SCOTUS
unanimous decision in Henry Schein, Inc., et al. v. Archer &
White Sales, Inc. court in its ruling by stating: "" The "wholly
groundless" exception to arbitrability is inconsistent with the
Federal Arbitration Act and this Court's precedent. Under the
- 17 -

Act, arbitration is a matter of contract, and courts must enforce
arbitration contracts according to their terms. Rent-A-Center,
West, Inc. v. Jackson, 561 U. S. 63, 67. The parties to such a
contract may agree to have an arbitrator decide not only the
merits of a particular dispute, but also " 'gateway' questions of
`arbitrability.' " Id., at 68-69. Therefore,

a court may not

override the contract, even if the court thinks that the arbitrability
claim is wholly groundless. That conclusion follows also from
this Court's precedent. See AT&T Technologies, Inc. v.
Communications Workers, 475 U. S. 643, 649-650."

No action is permitted after the grant of arbitration award,
Id., and Respondents can not raise "defenses" at any time --clearly against the express wording of the Act as drafted and
passed by the US Congress. Stated differently, to say that the
Respondents could raise these as defenses to Appellant's
arbitration award at any time would mean that the arbitration
award is somehow contingent upon a ruling of a court. THAT is
clearly and expressly (read Kavanugh's opinion) off the table
thanks to the Arbitration Act, which means that when
- 18 -

Respondents filed for their demurrers or other papers and
pleadings in lower courts, they had no grounds or basis to demur
since Petitioner's arbitration award was perfected in 2011,
Federal Arbitration Act.

No court action may be undertaken on an instrument that
does not exist, (lower Court's opinion issued by the recalled
judge, on DOT and lower court's taking judicial notice of DOT
which were and are null and void post perfection of Petitioner's
arbitration award).

No transaction can ignore the fact that the note and
security were canceled and under the act are void.
Without this point of clarity the simple arbitration act
"procedure" is lost. This is substantive law 4 and not subject to

4

Substantive law:" Substantive law is the statutory, or written
law, that defines rights and duties, such as crimes and
punishments (in the criminal law), civil rights and
responsibilities in civil law. It is codified in legislated statutes or
can be enacted through the initiative process. Substantive law
stands in contrast to procedural law, which is the "machinery"
for enforcing those rights and duties. Procedural law comprises
the rules by which a court hears and determines what happens in
civil or criminal proceedings, as well as the method and means
-19-

change by any procedural rules, as the court below erroneously
concludes that Petitioner's judgment under the Act is waived
when it is not.

Stated differently, the lower court or any

other courts CAN NOT use "procedures" to nullify Petitioner's
non-judicial arbitration award and judgment under notary
witness, Id., cemented into law by all three branches of the
government, to wit: the President, the Congress and SCOTUS
Henry Schein, Inc., Id.

The big mistake is that people, judges and lawyers
continue to view Petitioner's arbitration award as a pending claim
--- despite the US Supreme Court stating that courts cannot
interpret a statute without finding ambiguity (and being right
about that) they don't have power to change, add, amend or
modify the express wording of the statute.

After perfection of Petitioner's arbitration award, there is
no pending claim. After perfection of Petitioner's arbitration
award, there is only the fact that the note and security are gone.

by which substantive law is made and administered...." Source:
https://en.wikipedia.org/wiki/Substantive Jaw
-20-

To rule otherwise would breath life into the very contracts
that alleged Respondents allegedly created, of which same
alleged contract(s) were void as of 2011 by operation of
arbitration award, at Federal Arbitration Act, Id.
Initially, Respondents are time-barred and lack standing to
argue Petitioner's arbitration award by operation of the Federal
Arbitration Act. Again, to rule otherwise would destroy the
unanimous decision of the Supreme Court that arbitration award
is effective "by operation of law", Henry Schein, Inc., (2019).
The operation of law triggers the relief, not a court. The
relief is non-judicial and is effective just as the statue
contemplates. The alleged lenders in Petitioner's alleged loan
contracts acquiesced to judgment for Petitioner, Id., the
Respondents were under lawful duty 5 to speak, Respondents can
not and could not plead fifth amendment, see U.S. v. Tweel, 550

Petitioner respectfully presents to all to differentiate between
"lawful" and "legal". Legal pertains to statues, codes, ordinances
et. al. which are Godless and created by men, on the contrary,
lawful relate to Petitioner's inalienable rights, given to Petitioner
by God, Id. that it seems some public servants and British
Accreditation Regency ("British" or "BAR") agents others have
sworn an oath to uphold and defend, against all enemies, foreign
and domestic.
-215

F. 2d.297. "Silence can only be equated with Fraud where there
is a legal or moral duty to speak or where an inquiry left
unanswered would be intentionally misleading". Maxims of
Law: "He who doesn't deny, admits."
The alleged lenders were the only parties with a
cognizable claim and standing to rebut Petitioner's arbitration
award. So whether Petitioner was right or wrong, since the
"lender" did not respond and acquiesced to judgment for
Petitioner, the matter is closed and that is the end of the note and
mortgage.
Article III standing, like other bases of jurisdiction, must
be presented at the inception of and throughout the lawsuit.
Lujan v. Defenders of Wildlife, 504 U.S. 555, 570 n.5 (1992)
(plurality opinion) ("[S]tanding is to be determined as of the
commencement of suit."); see also Arizonans for Official English
v. Arizona, 520 U.S. 43, 64, 67 (1997) (holding that standing is
an aspect of the case or controversy requirement, which must be
satisfied "at all stages of review"); Keene Corp. v. United States,
508 U.S. 200, 207 (1993) ("[T]he jurisdiction of the Court

- 22 -

depends upon the state of things at the time of the action
brought.").
Standing is jurisdictional and a lack of standing precludes
a ruling on the merits. Media Technologies Licensing, LLC v.
Upper Deck Co., 334 F.3d 1366, 1370 (Fed. Cir. 2003) (Cal).
The lower Courts should have dismissed Respondents'
brief based on inter alia Respondents' standing and inability to
file any papers in court.
This series of requests, as written by Petitioner, exactly
describes the alleged lender's duties under the arbitration act law.
The lower court erred and exceeded its jurisdiction by
erroneously interpreting an unambiguous statute.
The statute, which is unambiguous as determined by the
Henry Schein, Inc. Court, is to be followed strictly.
The object of the word note refers directly to the
promissory note in the sentence structure, thus Petitioner intently
and correctly demands the return of his note as his personal
property...not his real property. The series of requests, as written
by Petitioner, exactly describes the alleged lenders' duties under
the arbitration award law. The lower Court erred and exceeded
- 23 -

its jurisdiction by erroneously interpreting an unambiguous
statue.
Black's Law Dictionary defines estoppel as: "A bar or
impediment raised by the law, which precludes a man from
alleging or from denying a certain fact or state of facts, in
consequence of his previous allegation or denial or conduct or
admission, or in consequence of a final adjudication of the matter
in a court of law. Demarest v. Hopper, 22 N. J. Law, 019; Martin
v. Railroad Co., 83 Me. 100, 21 Atl. 740; Yeeder v. Mudgett, 95
N. Y. 295.
The effect of Petitioner's arbitration award created a bar,
or estoppel, against any and all claims or standing under the
contract's void nature that the statute creates by design and intent
of the legislature. By arbitration award's straightforward process,
exercisable by Petitioner and not requiring judicial oversight,
Congress endorsed Petitioner's arbitration award at the Federal
Arbitration Act, Id.
Title 9, US Code, Section 1-14, was first enacted February
12, 1925 (43 Stat. 883), codified July 30, 1947 (61 Stat. 669),
and amended September 3, 1954 (68 Stat. 1233). Chapter 2 was
-24-

ASSOCIATION, AS TRUSTEE FOR GREENPOIN

added July 31, 1970 (84 Stat. 692), two new Sections were

MORTGAGE TRUST MORTGAGE PASS-THROE

passed by the Congress in October of 1988 and renumbered on

CERTIFICATES, SERIES 2007-AR2 nor U.S. BAN

December 1, 1990 (PLs669 and 702); Chapter 3 was added on

NATIONAL ASSOCIATION, nor any other alleged

August 15, 1990 (PL 101-369); and Section 10 was amended on

party, party of interest and holder in due course of th

November 15. This core language has remained in place for

debt, alleged mortgage and security.

decades and inures to the benefit of Petitioner.

Without guidance from this court, homeowner
success or failure depending on where they bring the
Trial judges in and around San Jose (County,
Bankruptcy courts) will reject unanimous SCOTUS
perhaps because they continue to view the arbitratio

The alleged "contract" is void by notice.
The Board never imposed an extra-statutory requirement
that a lawsuit be filed to exercise the arbitration award, Henry
Schein, Inc, Id.
In each of the above cases, Id., consumers filed suit to

pending claim and not as a fact as the act clearly dir

ENFORCE the statutory provisions of the statute, not to exercise

courts, while other courts have followed, as they sho

the right, which had already been accomplished, Henry Schein,

law, as the Henry Schein, Inc, Id's unanimous decisi

Inc, Id.

Although foreclosing trustees and purchasers

The act of arbitration award is not an act whereby

sales have a significant interest in finality, consumer

Petitioner demanded a "free house", as it appears to have

countervailing interest in avoiding wrongful foredo.,

espoused by the lower courts in this case, rather, Petitioner

Henry Schein, Inc, Id revealed the majority o

followed the strict order of the arbitration award process in

state and bankruptcy courts had "misinterpreted the

requiring that he receive back all of his money paid into the

enacting Congress," in allocating to borrowers the bi

consumer transaction, that the alleged creditors cancel the
- 25 -

security (deed of trust), as defined by the statute, an

to court to enforce their statutory arbitration award at Federal

property be returned to him (the promissory note). 1

Arbitration Act.

"lender's" failure to act and acquiescence to judgm

B.

Petitioner, Id., the self-operating non-judicial effec
arbitration award was perfected and the alleged "le
nothing more than a void contract by the operation
evinced herein.
The arbitration award is equivalent to Court

This Court should grant review in the interest of
justice since there is ample proof positive of no
loan made to Petitioner from any of the
Respondents which is the same as the arbitration
award and Petitioner still wins.

In Petitioner's motion to strike Respondents' brief in its
entirety filed in lower court on January 31, 2016 and denied on
January 13, 2016, Petitioner noticed the court below that

Federal Arbitration Act, except it is indorsed by all

Respondents have admitted to Petitioner, by their silence, that

branches of the government, Id., non-judicially.

there was no loan made to Petitioner from any of the

Petitioner attempted to shed light into lower

Respondents and their co parties, multiple times. Otherwise long

continuous and erroneous interpretation of the arb

ago, Respondents would have disclosed what has been

even though the statue is crystal clear on its face, 11

repeatedly demanded of them, to wit: actual wire transfer, wire

Inc, Id. but was not able to.

transfer instructions, ACH confirmation, cancelled check or

This situation is a compelling case for reviev
appeal decision to "secure uniformity of decision"

check 21 confirmation for proof of consummation of the alleged
loan.

when the void order was issued by a recalled judge

Respondents, as trustee, servicer, "lender" or any other

facts on records conducted several ex parte commu

label that one wants to put on them, in the instant action never

the attorneys without any power of attorney to repr

had constitutional standing or prudential standing and the lower

the ghost to wit: neither U.S. BANK NATIONAL
- 28 -

courts lacked subject matter jurisdiction over all Respondents, ab
initio.
The Respondents are barred from any argument as they
have no standing and courts lack subject matter jurisdiction to
hear any argument from the Respondents. The Briefs filed by
Respondents in courts below are barred under the doctrine of
lack of subject-matter jurisdiction by operation of Federal Law.
There are no exceptions under the statute, id. Fed. R. Civ. P.
Rule 12 (h) (3), Lack of Subject-Matter Jurisdiction.
And a sale would also be void. But the interesting direct
answer already found in the court system is that if the "lender" is
not disclosed there can be no consummation because there is no
loan contract unless you have at least two identified parties. If
there is no loan contract there is nothing to rescind. But an
admission from the "lender" or a finding by the court that
arbitration award is not available because the alleged loan
contract was never consummated or did not exist leads
inexorably to one conclusion: the "borrower" still wins.
The "borrower" [Petitioner] can then sue to nullify the
note, mortgage, debt, foreclosure and even auction on the basis
-29-

that they are void by operation of law because there was no deal.
And the "borrower" could then, sue to have the "banks" and
"servicers" return the monthly payments and other payments they
collected on the nonexistent contract for all the money they
collected. This too is supported by some case decisions where
Bank of America and others have been required to disgorge
money they received when they had no right to collect it in the
first place. So while there is a specific legal theory on how to
deal with this issue there is also a hidden issue that puts the
Respondents in the corner.
In order to have challenged the arbitration award, the.
Respondents must have filed an answer asking for declaratory
relief that the arbitration award is not effective, which they did
not and could not since there was no loan made to Petitioner
from any of the Respondents, their co parties, agent(s), and
principle(s) based on ample proof positive on records and by the
admission of the alleged attorneys for the ghost, to wit: U.S.
BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR
GREENPOINT MORTGAGE TRUST MORTGAGE PASSTHROUGH CERTIFICATES, SERIES 2007-AR2.
-30-

If their grounds are that arbitration award is not available
because there was no contract, then they are essentially arguing
that the "borrower" can't get arbitration award because there was
no contract. Either way they lose the deal, the mortgage, the
note, etc.
But that is not the only problem for Respondents. In order
to establish standing to challenge the arbitration award they must
allege that they or their predecessors were the real lenders and
were the actual source of funding. Those allegations puts the
burden of proof on the Respondents. They must prove the
original alleged loan and the acquisition of the loan not just by
paperwork that says it happened but by showing that money
exchanged hands both at origination and acquisition of the loan.

REASONS FOR GRANTING PETITION

The core question of the arbitration award is answered
affirmatively by the non-judicial operation of the law that
governs the statue. The secondary consequences of the same
operation of law produces the logical and only answer to the
-31-

questions of arbitration jurisdiction in the Lower Court and its
reliance upon void contract(s) confirmed by a recalled judge.
Respondents do not have a "dispute" provision to rely
upon under the statue. Respondents, and all parties to the alleged
loan contracts, possess nothing more than void paper by
operation of law. No rights in Respondents' alleged contracts
were ever conferred upon any party arbitration award.
Petitioner's jurisdictional challenge was founded strictly
and specifically upon the operation of his arbitration award and
the lack of standing of Respondents. Note Petitioner's appellate
"Issue Presented" in its chronological order where the issue of
the arbitration award as an operation of law is the pre-cursor to
the secondary questions in addition to the void order issued by a
recalled judge.
Some courts in California, like the lower court, have a
different idea, which they have set down in its unpublished
opinion in this case at [1 PT 36].
This idea views Petitioner's arbitration award, endorsed by
all three branches of the government to wit: The President, the
congress and the SCOTUS unanimous decision in Henry Schein,
- 32 -

Inc, Id. that arbitration award is effective upon its finality under
notary witness and sworn statement and nothing more is needed
from an alleged borrower, as a cause of action and a pending
claim which, according to the court below, was not raised in
Petitioner's complaint or its amended complaints.
However, arbitration under Federal Arbitration Act is not a
cause of action, it is non-judicial mechanism of law that is
triggered by, and is effective upon its perfection under notary
witness in sworn statement made by Petitioner.
Because Sepehty-Fard v. Aurora Bank, FSB et al., CA6
unpublished opinion as well as other courts of appeal and lower
courts have led to disregard established Federal law and clear
unambiguous statute, Id., that arbitration award is effective upon
the Respondents' acquiescence to non judicial judgment at
Federal Arbitration Act and the void order issued by a recalled
judge, this court should grant review in this case to continue to
uphold Henry Schein, Inc, Id. It should eliminate the confusion
and confirm that Henry Schein, Inc., apply throughout California
and nationwide, specially to a void judgment by a recalled
corrupt judge.
-33-

CONCLUSION

For these reasons, the petition for writ of certiorari should
be granted.
DATED: 1St day of June, 2020
Respectfully presented,
All rights reserve waive none

By:
Fareed-S epehry-Fard©

- 34 -

